      Department of Homeland Security



     Costs Claimed by Chicago Fire Department
    Under Fire Station Construction Grant Number
                  EMW-2009-FC-05246R




            American Recovery and Reinvestment Act of 2009



OIG-13-22                                                    January 2013

                           OFFICE OF INSPECTOR GENERAL
                                 iJeparlme", of lI0r0el."d S<", uri(y




                              JAN 2 2 2013

M EM ORANDUM FOR:             David J. Kaufman
                              Acting Assistant Administrator
                              Grant Programs Directorate
                              Fede ra l Emergency Management Agency

FROM:                         Anne L_Richards       ~:I~
                              Assistant Inspector General for Audits

SUBJECT:                      Costs Cloimed by Chicogo Fire Deportment Under Fire
                              Station Construction Grant Number fMW-2009-FC-OS246R

Attached for your information is our fin al letter report, Costs Cloimed by Chicogo Fire
Deportment Under Fire Station Construction Grant Number fMW-2009-FC-05246R.
Since the report contains no recommendations to Federal Emergency Management
Agency officials, we did not solicit formal comments_

Consistent with our responsib ilit y under the Inspector General Act, we are providing
copies of our report to congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We wil l post the report on
our website for public dissemination.

Major contributors to this report are Roger LaRouche, Di rector of Recovt"ry Act Audits;
M atthew Mangin, Auditor; and Marisa Coccaro, Report Referencer.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254·4100.

Attachment
                               OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Background
   The American Recovery and Reinvestment Act of 2009 (Recovery Act), as amended,
   appropriated $210 million to the Federal Emergency Management Agency (FEMA) for
   competitive grants for modifying, upgrading, or constructing nonfederal fire stations.

   The Chicago Fire Department submitted a grant application that identified six projects:
   five fire station renovations and one new station construction. The proposed costs for
   the six projects were $26 million, consisting of a Federal share of $15 million and an
   applicant share of $11 million. The grant application identified a Federal share of
   43 percent and an applicant share of 57 percent. FEMA awarded a grant of $4.8 million
   to the Chicago Fire Department to construct a new fire station. The grant award did
   not specify an amount or percentage for the matching share. A FEMA official told us
   that FEMA had not specified a Federal share in the award because it knew that the cost
   of the new station would exceed the Federal share and its main concern was that
   construction of the station be completed. However, the grant award states that “if the
   grantee offered to share in the cost of the project in their application, they are
   obligated to provide a cost-share at no less than the percentage pledged in the
   application.” We limited our audit to the amount claimed as the Federal share because
   the amount or percentage of the applicant share was not specified.

   The grant specified a period of performance from September 25, 2009, to September
   24, 2012. As of July 25, 2012, the Chicago Fire Department had nearly completed the
   construction of the new fire station (see figure 1) and had received reimbursements of
   $4,395,000 from FEMA.

   Figure 1. Chicago Fire Department Station #16




   Source: Chicago Fire Department.



www.oig.dhs.gov                                    2                                  OIG-13-22
                            OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Under the terms of the grant, the Chicago Fire Department agreed to use the grant
   funds according to FEMA’s fiscal year 2009 American Recovery and Reinvestment Act
   Assistance to Firefighters, Fire Station Construction Grants, Guidance and Application
   Kit (Guidance and Application Kit), and to comply with Office of Management and
   Budget (OMB) Circular A-87, Revised, Cost Principles for State, Local and Indian Tribal
   Governments, and the Uniform Administrative Requirements for Grants and
   Cooperative Agreements to State and Local Governments contained in 44 Code of
   Federal Regulations Part 13).

   The grant also includes requirements for complying with OMB Circular A-133, Revised,
   Audits of States, Local Governments, and Non-Profit Organizations, and Recovery Act
   provisions for submitting quarterly recipient reports to the Federal Government on the
   use of Recovery Act funds; paying prevailing wages as determined by the Secretary of
   Labor; and using American-made iron, steel, and manufactured goods.

   The objective of this audit was to determine whether costs claimed by the Chicago Fire
   Department were allowable, allocable, and reasonable according to the grant
   agreement and applicable Federal requirements.

   Results of Audit
   The new fire station was substantially complete with minor interior work and
   furnishings remaining as of July 18, 2012. The Chicago Fire Department placed the new
   station into operation in September 2012. As of July 12, 2012, the Chicago Fire
   Department had requested reimbursement of $ 4,395,000 from FEMA for the
   construction of the new fire station. We determined that the Chicago Fire Department
   had incurred sufficient allowable, allocable, and reasonable costs to earn the
   $4,395,000 it claimed for reimbursement. In addition, we concluded that the Chicago
   Fire Department complied with grant requirements for submitting quarterly Recovery
   Act reports to the Federal Government and for ensuring that contractors were paid
   prevailing wages and used American-made iron, steel, and manufactured goods in the
   construction of the new fire station.

   Compliance With Requirements for Reporting, Buying American, and Paying
   Prevailing Wages

   The Recovery Act requires recipients to submit quarterly reports on project activities to
   the Federal agency providing the grant; to ensure that projects are accomplished with
   American-made iron, steel, and manufactured goods; and to ensure that laborers and
   mechanics are paid, at a minimum, prevailing wages as determined by the Secretary of



www.oig.dhs.gov                                 3                                       OIG-13-22
                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Labor under 40 U.S.C. Chapter 31, Subchapter IV. The Chicago Fire Department
   submitted quarterly reports to FEMA and ensured that “Buy America” and prevailing
   wage provisions were followed during the construction of the fire station. The
   Recovery Act provisions were included in the public solicitation and general
   construction contracts. The Chicago Public Building Commission provided onsite
   oversight of the construction project and contractor pay vouchers and visited the
   construction site to confirm payment of prevailing wages.




www.oig.dhs.gov                               4                                   OIG-13-22
                             OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of this audit was to determine whether costs claimed by the Chicago Fire
   Department were allowable, allocable, and reasonable according to the grant and
   applicable Federal regulations. This audit covered costs of $4.8 million claimed by the
   Chicago Fire Department from June 2010 to June 2011 and reimbursed by FEMA.

   In conducting our audit, we did the following:

       Obtained and reviewed the Recovery Act, the grant application and award, the
       grant Guidance and Application Kit, and Federal cost principles and grant
       administrative requirements;

       Interviewed Chicago Fire Department and Chicago Public Building Commission
       personnel to gain an understanding of their accounting system and the applicable
       internal controls;

       Reviewed the fiscal year 2009, 2010, and 2011 single audit reports to identify issues
       and other conditions that could affect our examination;

       Reviewed the recipient’s internal controls specifically related to our objectives;

       Examined vendor invoices and other evidence supporting the costs incurred and
       claimed for FEMA reimbursement;

       Reviewed contract files and supporting documentation for primary contractors and
       professional service providers for the fires station construction projects;

       Reviewed accounting transactions related to purchases, payments, and receipt of
       FEMA reimbursements;

       Used the grant provisions and applicable Federal requirements to determine
       whether amounts claimed were eligible for reimbursement; and


www.oig.dhs.gov                                 5                                           OIG-13-22
                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


       Performed fraud detection procedures.

   To accomplish our objectives, we relied on the work of Baker Tilly Virchow Krause, LLP,
   as part of the A-133 Single Audit. We did not review the independent auditor’s
   workpapers, nor did we perform tests on this work.

   We conducted this performance review between July and September 2012, pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objective. We believe that the evidence
   obtained provides a reasonable basis for our conclusions based upon our audit objective.




www.oig.dhs.gov                                6                                       OIG-13-22
                              OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security



   Appendix B
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer
   Recovery Act Coordinator

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate,
     Federal Emergency Management Agency
   Audit Liaison Official

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  7                         OIG-13-22
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
